U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 15, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Richard Balter v. United States, No. 20-217
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 19,
2020. The government’s response is now due, after one extension, on October 26, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 25, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Because petitioner is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0217
BALTER, RICHARD
USA

RICHARD BALTER
PRISONER ID #17432-050
U.S.P. PETERSBURG
P.O. BOX 1000
PETERSBURG, VA 23804

